                     U.S. DEPARTMENT OF ENERGY

                    OFFICE OF INSPECTOR GENERAL




                      REPORT ON INSPECTION OF

               ANALYTICAL LABORATORIES OVERSIGHT AT

                  THE STRATEGIC PETROLEUM RESERVE


     The Office of Inspector General wants to make the
     distribution of its reports as customer friendly and cost
effective as possible. Therefore, this report will be
avaiable electronically through the Internet five to seven
days after publication at the following alternative
addresses:

          Department of Energy Headquarters Gopher
                    gopher.hr.doe.gov

          Department of Energy Headquarters Anonymous FTP
                   vm1.hqadmin.doe.gov

          Department of Energy Human Resources and
          Administration Home Page
          http://www.hr.doe.gov/refshelf.html

          Your comments would be appreciated and can be provided
          on the Customer Response Form attached to the report.

          This report can be obtained from the
               U.S. Department of Energy
               Office of Scientific and Technical Information
                         P.O. Box 62
                    Oak Ridge, Tennessee 37831

Report No.:    INS-0D95D02                  Office of Inspections
Date Issued:   July 26, 1995                Washington, DC 20585

                      REPORT ON INSPECTION OF
               ANALYTICAL LABORATORIES OVERSIGHT AT
                  THE STRATEGIC PETROLEUM RESERVE
                        TABLE OF CONTENTS

                                                             Page

I.     INTRODUCTION AND PURPOSE ..........................     1

II.    SCOPE AND METHODOLOGY .............................     2

III.   SUMMARY RESULTS OF INSPECTION .....................     3

IV.    BACKGROUND ........................................     6

V.     RESULTS OF INSPECTION .............................     8

DYNMCDERMOTT'S MANAGEMENT CONTROL SYSTEM FOR SPR
  ANALYTICAL LABORATORIES .........................    8

SPRPMO OVERSIGHT OF ANALYTICAL LABORATORIES .......   19

ANALYTICAL SUBCONTRACTOR OVERSIGHT ................   23

MANAGEMENT PRACTICES FOR SELECTED EQUIPMENT AT
  SPR SITE LABORATORIES ...........................   29

LACK OF TIMELY DISPOSAL OF AN UNNEEDED
  RADIOACTIVE CHEMICAL ............................   34

APPENDIX A ........................................   39
                               #=1
                    U.S. DEPARTMENT OF ENERGY
                   OFFICE OF INSPECTOR GENERAL
                      OFFICE OF INSPECTIONS
                      WASHINGTON, DC 20585

                     REPORT ON INSPECTION OF
              ANALYTICAL LABORATORIES OVERSIGHT AT
                 THE STRATEGIC PETROLEUM RESERVE


I.   INTRODUCTION AND PURPOSE

     The Department of Energy's (DOE) Assistant Secretary for
Fossil Energy has overall programmatic responsibility for
the Strategic Petroleum Reserve (SPR). The SPR Project
Management Office (SPRPMO), located in New Orleans,
Louisiana, and under the direction of the Project Manager,
manages day-to-day project activities. The SPR currently
has five underground crude oil storage facilities, and one
marine terminal, on or near the Gulf Coasts of Texas and
Louisiana.

On March 26, 1993, DOE awarded a contract to DynMcDermott
Petroleum Operations Company (DynMcDermott) of New Orleans
to be the SPR's management and operating (M&O) contractor
for a five year period, beginning April 1, 1993. M&O
contractor personnel, supported by subcontractors, conduct
environmental compliance and oil quality assurance
analytical activities at the various SPR facilities.

The purpose of this inspection was to review oversight of
M&O and subcontractor laboratories performing analyses on
samples taken for SPR environmental compliance and oil
quality purposes. During this inspection, the M&O
contractor operated on-site environmental laboratories
at four of the SPR storage facilities, and oil quality
laboratories at two of the facilities. The number of
subcontractor laboratories varies depending on the need for
analytical support. The objective of this inspection was
to determine if the SPRPMO had implemented management
systems to provide adequate oversight of M&O contractor
analytical laboratory activities, as well as to ensure
     effective oversight of subcontractor analytical laboratories.
II. SCOPE AND METHODOLOGY

     In conducting this inspection, we reviewed pertinent
documentation associated with the April 1992 Tiger Team's
assessment of the SPR, subsequent Tiger Team analytical
laboratory recommendations, and planned corrective actions.
Additionally, we interviewed SPRPMO officials responsible
for overseeing the implementation of corrective actions for
Tiger Team findings, as well as for the ongoing SPRPMO
effort to revise the Tiger Team Corrective Action Plan
and delete low priority findings. Management systems in
place, both within SPRPMO and the M&O contractor, were also
reviewed, with emphasis on evaluating the degree of
structured oversight provided for analytical laboratory
activities.

     To review corrective actions, test the implementation of
management systems, and determine the degree of oversight
for analytical activities, we visited four SPR storage
facilities: the Bayou Choctaw Site, Iberville Parish,
Louisiana; the Big Hill Site, Jefferson County, Texas; the
Bryan Mound Site, Brazoria County, Texas; and the West
Hackberry Site, Cameron Parish, Louisiana. The Quality
Assurance/Quality Control (QA/QC) Program Manager,
Environmental Restoration Division, Oak Ridge Operations
Office, provided technical assistance during inspection
activities at these storage facilities.

     At each SPR storage facility visited, we discussed
analytical activities and laboratory oversight with site
environmental, safety, and health (ES&H) management, and
with site laboratory and quality assurance personnel. We
observed analytical activities within the M&O contractor's
four on-site environmental laboratories, and at one of the
two oil quality assurance laboratories. We also reviewed
documentation related to operation of on-site laboratories,
and information pertaining to services performed by
analytical subcontractors.

     The inspection was conducted in accordance with Quality
Standards for Inspections issued by the President's Council
on Integrity and Efficiency.
III. SUMMARY RESULTS OF INSPECTION

The following is a brief summary of the findings of this
inspection:

o We concluded that the lack of an effective management
control system within the SPR M&O contractor resulted in
management control deficiencies at SPR analytical
laboratories. We identified management control
deficiencies which could result in non-compliance with
Clean Water Act (CWA) regulations, U.S. Environmental
Protection Agency (EPA) guidelines, and DOE orders
related to environmental activities and crude oil
quality. Boeing Petroleum Services, Inc. (BPS), and
DynMcDermott, the successor M&O contractor, had
previously been made aware of similar deficiencies, in
some cases as early as 1989.

For example, we found that the SPR on-site laboratories
conducting environmental compliance and crude oil
quality analyses did not have formal laboratory
procedures, including quality assurance procedures.
Such procedures are required by CWA regulations. As a
result of the lack of this basic laboratory control, we
observed analytical personnel at one SPR on-site
laboratory who were not following proper EPA methods for
compliance related analytical processes. We also
observed quality assurance problems, including a failure
to follow EPA sample chain-of-custody requirements, at
two other SPR on-site laboratories.

We also found that records management requirements had
not been defined for SPR's on-site analytical
laboratories. As a result, the laboratories
recordkeeping practices did not ensure that SPR
environmental compliance data would be available to
support reports submitted to regulatory agencies.
Logbooks containing required original data reports were
not being adequately protected through storage in
secure, fire-safe cabinets, and duplicate data reports
were not being maintained in a separate location.

We further noted that SPR on-site analytical laboratory
personnel did not, in all cases, possess required
position qualifications nor receive specified continuing
training to ensure maintenance of job proficiency. This
lack of qualifications and training may have contributed
to some of the job performance deficiencies we observed
during on-site visits.
o We concluded that the SPRPMO had not provided for
oversight, confirmation, and independent verification of
work performed by SPR analytical laboratories conducting
environmental protection compliance analyses. These
requirements are specified in DOE orders, including DOE
Order 5400.1, "General Environmental Protection
Program." For example, neither SPRPMO Environmental,
Safety, and Health officials, SPRPMO Quality Assurance
(QA) officials, nor Defense Contract Management Command
(DCMC) officials were conducting appraisals of work
performed by SPR analytical laboratories for
environmental protection compliance. Further, SPRPMO
environmental specialists did not agree that they had
responsibility for certain assigned oversight functions.

We noted that the 1992 Tiger Team Assessment of the SPR
had also identified SPRPMO ES&H oversight deficiencies,
including a lack of appraisals. Without adequate
oversight of the SPR analytical laboratories, SPRPMO can
neither ascertain that an environmental protection
program has been effectively implemented, nor determine
the degree of SPR compliance with all applicable
requirements.

o We concluded that neither DynMcDermott, nor the
predecessor contractor, had provided sufficient
oversight for on-site and off-site subcontractors
providing analytical services. Such oversight is
required by DOE orders, including DOE Order 5700.6C,
"Quality Assurance." Oversight of subcontractors
providing analytical services, to include formal and
documented audits, is necessary to ensure that procured
services meet established requirements and are of
acceptable quality.

We identified problems which may have been prevented by
increased M&O contractor oversight of subcontractor
analytical laboratories including: 1) an analytical
subcontractor operating on-site at the SPR was unable
to, subsequent to our site visit, provide us with data
showing the accuracy of a testing device being used;
2) required accuracy and quality control data was
missing from data submitted by an SPR subcontract
laboratory; 3) quarterly auditing recommended in June
1991 had not occurred at an off-site subcontract
laboratory providing oil quality analyses; and, 4) an
environmental permit non-compliance was attributed to an
off-site analytical subcontractor who had not been
subjected to a formal, documented, audit.
o We identified approximately $148,000 of unused
laboratory analysis equipment at various SPR site
laboratories. We concluded that purchase of a portion
of this equipment, approximately $89,000, was an
unnecessary expenditure. We subsequently determined
that some of the identified equipment had never been
used for its intended purpose. Furthermore, all of the
equipment had been idle for several years, and had not
been promptly excessed nor properly designated as
equipment held for future projects, as required by DOE
Property Management Regulations.

o Laboratory employees at one SPR site worked around the
potential hazards associated with an unneeded
radioactive chemical during its long-term storage. A
small quantity (approximately 10 grams) of this
chemical, Uranyl Acetate, had been stored in an SPR
site laboratory for more than 10 years. Current SPR
personnel do not know how the radioactive chemical got
into the laboratory, or why. DynMcDermott officials we
contacted were unable to determine how, when, or why an
additional 15 grams of this chemical may have been
utilized. Knowledgeable SPRPMO and DynMcDermott
officials estimated labor costs ranging between $10,000
and $20,000 had been incurred in repeated attempts to
arrange for disposal of the Uranyl Acetate, which had a
value of approximately $100. Disposal efforts, and the
steadily accumulating disposal costs, were continuing
at the conclusion of our inspection field work.

     Officials with the Strategic Petroleum Reserve Project
Management Office provided comments on the report's
findings and recommendations. SPRPMO officials concurred
with our recommendations and provided additional comments
on actions that have been, or will be, taken with respect
to SPR analytical laboratories.

     SPRPMO officials stated that significant program
improvements had taken place since our inspection was
completed. These improvements were based on SPR project
initiatives and progress on correcting Tiger Team
deficiencies previously identified. Further, the SPRPMO
officials stated that DOE and DynMcDermott (DM) now
routinely perform oversight of the laboratory function.
SPRPMO officials also stated DOE and DM have performed
independent assessments at both contractor off-site and SPR
laboratories.
IV. BACKGROUND

     The SPR is a large crude oil stockpile with a mission of
reducing our nation's vulnerability to supply interruptions
by adding, when needed, to U.S. crude oil supplies.
Congress authorized the SPR, which is under the control of
the President of the United States, in the Energy Policy
and Conservation Act of 1975.

     The SPR facilities have, since April 1, 1993, been managed
and operated by DynMcDermott Petroleum Operations Company
under M&O Contract DE-AC96-93P018000. Between April 1,
1985, and March 31, 1993, the management, operating, and
maintenance (mOM) contractor at the SPR was Boeing
Petroleum Services, Inc. (BPS).

     Analysis of SPR environmental samples is required to ensure
compliance with environmental regulations, as well as DOE
and SPRPMO orders. The analysis of SPR crude oil is part
of an overall crude oil quality assurance program which is
driven by DOE and SPRPMO orders. This QA program is
important to ensure SPR crude oil conforms to its expected
characteristics, remains marketable and free of foreign
contaminants, and is suitable for normal refinery
processing.

     At the time of this inspection, the M&O contractor was
operating on-site laboratories to analyze samples for
environmental compliance purposes at the Bayou Choctaw, Big
Hill, Bryan Mound, and West Hackberry sites. Additionally,
the M&O contractor was operating on-site laboratories to
conduct QA analyses of SPR crude oil at the West Hackberry
Site and the St. James Terminal, St. James, Louisiana. The
Weeks Island Site, in Iberia Parish, Louisiana, did not
have an on-site M&O contractor laboratory in operation
during this inspection.

The number of subcontracts in place for analytical
laboratory support varies according to the M&O contractor
laboratories need for such support. Subcontractor
analytical services are typically provided off-site.
During our inspection field work, we identified six
subcontractor laboratories that were providing some degree
of analytical support for the analysis of environmental,
crude oil quality, or hazardous waste characterization
samples.
     Management oversight consists of all those activities which
assure and inform management that a program is being
effectively implemented. Management oversight is also
needed to determine the degree of compliance with
applicable requirements. Both DOE and the M&O contractor
have issued management oversight guidance.

     DOE Guidance
     DOE Order 5400.1, "General Environmental Protection
Program," dated November 9, 1988, and its subsequent
changes, established the DOE policy on management and
oversight of environmental activities, such as analysis of
environmental samples. DOE's policy is to conduct
operations in compliance with the "letter and spirit" of
applicable environmental statutes, regulations, and
standards. Additionally, DOE is committed to good
environmental management and to consistency in meeting
environmental obligations. The DOE policy further states
that contractors will share the DOE commitment to good
environmental management, and that DOE will "actively
oversee" contractors' activities to assure compliance.

     DOE implementation guidance for management oversight of SPR
crude oil analyses is found in Order SPR 5030.1A,
"Strategic Petroleum Reserve Crude Oil Quality Assurance
Policy," dated April 5, 1985. This Order states the DOE
Office of Fossil Energy's policy that the SPR have a
comprehensive QA program for crude oil, and defines QA as:

"The planning, systematic management, and
auditing of all actions required to ensure the
quality of crude oil . . . . Quality assurance
encompasses quality control functions as defined
below."

Order SPR 5030.1A defines quality control (QC) as:

"All actions involved in the inspection and
verification of the characteristics of
crude oil . . . . These actions include
the sampling, analysis, and data recording
and reporting necessary to control the
quality of the crude oil."

     Contractual Guidance

     DynMcDermott is contractually required to utilize the best
available management practices, and to comply with
applicable DOE orders and guidance. These requirements are
found in Section C.1 of the DynMcDermott M&O contract,
titled "Scope of Work." Section C.1 requires that
DynMcDermott utilize the best available operational
technology and "management practices" from Government and
commercial sources in the conduct of operations at the SPR.
Further, Section C.1 also requires DynMcDermott's
compliance with DOE orders, plans and programs, and
management directives for M&O contractors.


V.   RESULTS OF INSPECTION

     DYNMCDERMOTT'S MANAGEMENT CONTROL SYSTEM FOR SPR ANALYTICAL
     LABORATORIES

Both the DynMcDermott contract, and the former BPS
contract, contain requirements for compliance with Clean
Water Act regulations and guidelines. Adequate analytical
laboratory controls are required for compliance with CWA
regulations. EPA enforces these regulations and other
guidelines. The need for effective management control
systems for SPR analytical laboratories is also affirmed in
DOE orders which provide policies and guidance on
environmental activities and crude oil quality.

     We concluded that the lack of an effective management
control system within the SPR M&O contractor resulted in
management control deficiencies at SPR analytical
laboratories. We identified management control
deficiencies which could result in non-compliance with
Clean Water Act regulations, U.S. Environmental Protection
Agency guidelines, and DOE orders related to environmental
activities and crude oil quality. BPS, and/or
DynMcDermott, the successor M&O contractor, had previously
been made aware of similar deficiencies, in some cases as
early as 1989.

For example, we found that the SPR on-site laboratories
conducting environmental compliance and crude oil quality
analyses did not have formal laboratory procedures,
including quality assurance procedures. Such procedures
are required by CWA regulations. As a result of the lack
of this basic laboratory control, we observed analytical
personnel at one SPR on-site laboratory who were not
following proper EPA methods for compliance related
analytical processes. We also observed quality assurance
problems, including a failure to follow EPA sample
chain-of-custody requirements, at two other SPR on-site
laboratories.

We also found that records management requirements had not
been defined for SPR's on-site analytical laboratories. As
a result, the laboratories recordkeeping practices did not
ensure that SPR environmental compliance data would be
available to support reports submitted to regulatory
agencies. Logbooks containing required original data
reports were not being adequately protected through storage
in secure, fire-safe cabinets, and duplicate data reports
were not being maintained in a separate location.
We further noted that SPR on-site analytical laboratory
personnel did not, in all cases, possess required position
qualifications nor receive specified continuing training to
ensure maintenance of job proficiency. This lack of
qualifications and training may have contributed to some of
the job performance deficiencies we observed during on-site
visits.

     SPR Laboratory Procedures

     We found that, despite a long recognized need, SPR on-site
laboratories conducting oil quality and environmental
compliance analyses did not have formal laboratory
procedures, a necessary laboratory control. The
laboratories also did not have quality assurance
procedures. Adequate laboratory controls and quality
assurance procedures are required by CWA regulations.

          Laboratory Procedure Requirements

     The primary environmental regulations which SPR sites must
comply with are CWA permit regulations in Title 40, Code of
Federal Regulations (CFR), Part 122, "EPA Administered
Permit Programs: The National Pollutant Discharge
Elimination System" (NPDES). These regulations contain
permit requirements for any discharge of pollutants to
surface waters. NPDES permits are held by the SPR sites
and contain provisions for compliance sampling, analysis,
and reporting. In complying with these permits, 40 CFR
122.41(e), "Proper operation and maintenance," states:

"The permittee shall at all times properly
operate and maintain all facilities and
systems of treatment and control (and
related appurtenances) which are installed
or used by the permittee to achieve
compliance with the conditions of this
permit. Proper operation and maintenance
also includes adequate laboratory controls
           and appropriate quality assurance procedures."

     These provisions are incorporated into SPR permits issued
by the EPA, and into SPR permits issued under some state
programs. Additionally, some SPR permits modify the above
provisions to include, along with adequate laboratory
controls, adequate "process controls." By specific
incorporation of Federal Acquisition Regulation 52.223-2,
"Clean Air and Water" (APR 1984), into the BPS contract
(DE-AC96-85P021431), and subsequently into the DynMcDermott
contract (DE-AC96-93P018000), both contractors agreed to
comply with all CWA regulations and guidelines.

     Additionally, work process controls, including procedures,
are specifically required by DOE Orders 5400.1, "General
Environmental Protection Program," and 5700.6C, "Quality
Assurance." Also, DOE Order 5480.19, "Conduct of
Operations Requirements for DOE Facilities," sets forth
DOE's policy that procedures be used to control conduct of
operations, reviews, and assessment of program
effectiveness.

          Previous Reviews at SPR Laboratories

     During our inspection, we identified a number of previous
reviews that identified problems related to the lack of
laboratory standard operating procedures. We also noted
that BPS was made aware of laboratory procedural problems
as early as August 1989, when the SPRPMO Site Appraisal
Report on the now decommissioned Sulphur Mines SPR Site was
issued. This report mentioned a Headquarters Survey
Appraisal that had identified a lack of written laboratory
procedures for water quality samples. Drafting of these
procedures had not been completed at the conclusion of our
inspection field work, even though permits containing the
need for such procedures were issued to SPR sites as early
as 1982.

     In May 1991, an analytical laboratory audit was performed
by DOE's Oak Ridge Operations Office (ORO). At that time,
the SPRPMO Project Manager reported to the ORO Manager.
This relationship has since changed, with the SPRPMO
Project Manager now reporting to DOE Headquarters. The May
1991 audit, transmitted to the SPRPMO Project Manager on
June 5, 1991, identified laboratory procedural problems at
the various SPR sites.
     During March and April 1992, the Tiger Team Assessment of
the SPR was conducted. The Tiger Team found a lack of
approved laboratory procedures adequate to control sampling
and analysis, calibration and standardization,
documentation and reporting, data validation, outside
services, and auditing. Included in the Tiger Team's
findings was the lack of an environmental QA program,
including QA/QC plans and procedures.

     Since 1989, numerous other reviews of BPS and DynMcDermott
activities have documented problems with the preparation of
laboratory procedures. These reviews have stressed the
preparation of a procedural document, referred to by
reviewers and analytical staff as the "Laboratory Programs
and Procedures Manual" (LPPM). Synopses of the additional
reviews we analyzed is provided in Appendix A.

     On September 28, 1993, DynMcDermott issued an Environmental
Programs and Procedures (EPPM) document. This document,
which did not contain laboratory procedures, refers the
reader to the LPPM for guidance on sampling and analysis
procedures, data management, instrument operation,
laboratory QA, and contract laboratory services. The EPPM
also shows a document control number for the LPPM, as if
the LPPM was at that time a completed document. However,
as previously stated, the LPPM had yet to be issued at the
completion of our inspection field work in July 1994.

          Procedures Not High Priority

     In April 1991, BPS created and filled a position to manage
the majority of SPR analytical activities. The duties of
this manager included writing the LPPM, a task which
remained incomplete when the BPS contract expired. The
employee who filled this management position told us BPS
officials had discussed the need for formal laboratory
procedures as early as January 1990.

     This employee, who continued to be responsible for writing
the LPPM under DynMcDermott, told us that not more than
five days in a row was ever spent working on the LPPM.
Other initiatives were deemed to be of a higher priority.
This employee also told us DynMcDermott management had not
made LPPM completion a priority, and that management had
repeatedly said they would arrange for extensions of LPPM
due dates.
     However, this employee's current supervisor told us the
task of writing the LPPM was indeed a high priority.
Further, this employee's former supervisor told us, "I
probably should have stepped in to do something" to speed
up the LPPM.

     A SPRPMO ES&H Division official told us one reason the SPR
lacked a LPPM could be attributed to a lack of SPRPMO ES&H
oversight. The SPRPMO ES&H official also said that M&O
contractor oversight weaknesses were another reason the
LPPM had never been completed. This official concluded "we
have both [SPRPMO and the M&O contractor] fallen down" on
responsibilities for timely issuance of the LPPM.

          Problems Resulting from Lack of Procedures

     During our review, a SPRPMO division director told us the
lack of a LPPM created problems for SPR sampling and
laboratory consistency, and that such a document was needed
to satisfy the QA program requirements found in DOE Order
5400.1. Further, DynMcDermott officials told us that,
without the LPPM, there were neither procedures or formal
guidance for sampling and analysis activities, nor for
proper laboratory auditing and control.

     Management officials in the DynMcDermott Quality Assurance
organization stated that their personnel were conducting
ES&H oversight activities at the SPR sites. These
activities consist of ES&H checklist audits, called
"surveillances." We reviewed the DynMcDermott QA
checklists, and determined that sampling and analytical
processes were not included. DynMcDermott QA personnel at
the sites confirmed this, and explained that since the LPPM
had not been published, they had not conducted oversight of
laboratory processes.

     During site inspections, we observed DynMcDermott
laboratory personnel following informal procedures, which
they called "cheat sheets," when performing laboratory
analyses. We also observed consistency/QA problems,
including two on-site laboratories not following EPA sample
chain-of-custody requirements, thereby reducing legal
defensibility of the resulting analytical data. At another
SPR on-site laboratory, we observed staff who were not
following the proper EPA methods for three different
compliance related analytical processes (Biochemical Oxygen
Demand analysis, Total Organic Carbon analysis, and pH
meter calibration).

     SPR Laboratory Recordkeeping

     We concluded that recordkeeping practices at SPR on-site
analytical laboratories may not ensure that important
environmental compliance data is protected against damage
or loss.

     Records Management Requirements

As stated above, NPDES Permits are held by the SPR sites.
These permits contain provisions for compliance sampling,
analysis, and reporting. The reports prepared under NPDES
Permits, known as Discharge Monitoring Reports (DMRs),
reflect the results of analyses performed by SPR and
subcontractor analytical laboratory personnel. With
respect to recordkeeping related to these analyses and the
resultant DMRs, 40 CFR 122.41(j)(2-3), "Monitoring and
records," states:

". . . the permittee shall retain records of
all monitoring information, including all
calibration and maintenance records and all
original strip chart recordings for
continuous monitoring instrumentation,
copies of all reports required by this
permit, and records of all data used to
complete the application for this permit,
for a period of at least 3 years from the
date of the sample, measurement, report or
application."

     The referenced portion of 40 CFR continues by including
information which would typically be entered in laboratory
logbooks (i.e., dates/times/place of sampling/analysis,
names of samplers/analysts, and analytical methods). Also
included are requirements relating to results of analyses
(original data when no duplicates exist). These
recordkeeping requirements are incorporated into SPR NPDES
Permits, and permits issued to SPR sites by state
regulatory agencies.

     DOE Orders 5400.1, "General Environmental Protection
Program," and 5700.6C, "Quality Assurance," contain
criteria pertaining to records. Also, Order SPR 5030.1A,
"Strategic Petroleum Reserve Crude Oil Quality Assurance
Policy," makes "sampling, analysis, and data recording and
reporting" a part of the crude oil QA program.


           Records Management Requirements Not Defined

     Our review revealed that records management requirements
had not been defined, nor implemented via SPR laboratory
procedures. As a result, laboratory recordkeeping
practices did not ensure SPR environmental compliance data
would be available to support reports submitted to
regulatory agencies.

     During the Tiger Team Assessment of the SPR in 1992, BPS
was made aware of records management program deficiencies.
The Tiger Team found a general lack of implementation of
DOE policies for the protection and control of analytical
records, while noting inadequacies at all SPR site
laboratories. The Tiger Team's report mentioned specific
instances of inadequacies related to the protection and
preservation of analytical records, including compliance
records.

      On August 16, 1993, DynMcDermott prepared corrective action
plans (CAPs) for the Tiger Team's records management
findings. These plans indicated that recordkeeping
procedures were to be included in the Environmental
Programs and Procedures Manual, and the Laboratory Programs
and Procedures Manual. The recordkeeping requirements were
to be defined by March 30, 1994, with transfer of
appropriate records to fire-safe cabinets by February 28,
1995.

     On September 28, 1993, two related actions occurred:
1) DynMcDermott issued an EPPM which specified retention of
certain categories of environmental records for three
years, but which did not contain specific records
management procedures nor specifically address laboratory
records; and 2) DynMcDermott revised and consolidated the
CAPs for the above mentioned records management findings.
The EPPM referred the reader to the then nonexistent LPPM
for details on data management, and the consolidated CAP
indicated that DynMcDermott planned to postpone defining
recordkeeping requirements until April 1996, with transfer
of records in June 1996. A DOE Oversight Designee approved
this revision and consolidation.

         Compliance Protocol Did Not Include EPA Requirements

     Corrective action plans resulting from the Tiger Team
assessment were being revised at the conclusion of our
inspection field work. The Tiger Team's findings were
being evaluated by M&O contractor personnel, with SPRPMO
personnel approving the contractor's evaluations. These
evaluations compared the Tiger Team compliance protocol
(i.e., laws, DOE orders, and best management practices)
with the potential ES&H impact of the findings. The
findings were being assigned corrective action priorities
based on the evaluators' judgement of whether the finding
identified major or marginal ES&H non-compliance. This
prioritization was also impacted by whether the ES&H
non-compliance was with Federal, state, or local laws, DOE
ES&H orders, or best management practices.

When reviewing SPR's laboratory records management
practices, the Tiger Team did not utilize a compliance
protocol which included EPA requirements for the retention
of records. Because the compliance protocol only included
DOE orders significant to ES&H, the sampling, analysis, and
data recording and reporting section of the SPR crude oil
QA Order, Order SPR 5030.1A, was not included. Since the
compliance protocol neither included EPA requirements, nor
non-ES&H criteria such as Order SPR 5030.1A, corrective
actions for the Tiger Team's records management findings
may not have been assigned sufficient priority in initial
CAPs, or in subsequent revisions.

         Recordkeeping Problems Noted

     We observed several recordkeeping problems during our site
inspections. For example, chemists at the SPR on-site
laboratories we visited used their own informal
recordkeeping systems, without a consistent approach and
without written indexing procedures. Due to this
informality, chain-of-custody records for samples analyzed,
as well as analysis reports from subcontractor laboratories
supporting the on-site laboratories, were loosely stored in
folders and were not consistently organized in a logical
manner. We were unable to review a specific
chain-of-custody record at one laboratory because the
record could not be located.

     Logbooks containing original data reports were stored in
laboratory cabinets. The cabinets used were not secure,
fire-safe cabinets, and, as such, would not adequately
protect these original laboratory records from fire or
other loss. Therefore, compliance with the requirement
in 40 CFR 122.41(j)(2) to maintain analytical data for
three years could be jeopardized, since duplicate required
data was not being maintained at another location.


We also observed, during the site inspections, various
planned or ongoing construction efforts to increase SPR's
capability to perform crude oil QA analyses on-site. As a
result of performing more analyses on-site, additional data
will need to be maintained at the sites. Therefore,
inadequate recordkeeping practices could result in
significant losses of data required for compliance with the
SPR crude oil QA Order.

     SPR Analytical Personnel Qualifications/Training

     We found that SPR on-site analytical laboratory personnel
did not, in all cases, possess required qualifications nor
receive continuing training to ensure maintenance of job
proficiency.

     Qualifications/Training Requirements

     As stated in a previous section, the SPR sites hold EPA and
state permits. Certain of these permits stipulate that
proper operation and maintenance of permitted facilities
includes "adequate operator staffing and training."

     DOE Order 5700.6C, "Quality Assurance," also requires
continuing training to ensure maintenance of job
proficiency. This Order also requires that the training
provided emphasize correct performance of work.

     At the M&O contractor level, the DynMcDermott "Laboratory
Management Plan," dated November 1993, specifies
qualifications for analytical personnel. This Plan
requires safety, sampling, and analysis training for new
laboratory employees. The Plan also requires annual
     "Refresher courses and update sessions and training . . . ."

     SPR Analytical Personnel - Site Chemists

     In some cases, SPR site chemists contacted during
inspection site visits had not received continuing training
to ensure maintenance of job proficiency nor to ensure
correct performance of work. At one SPR site, the site
chemist said that he had not received any analytical
procedures training since he was employed as a SPR site
chemist in 1991.

     At another SPR analytical laboratory, the site chemist
performed regulatory and oil quality analyses. This
chemist told us he had only been to one analytical
procedures training class since becoming an SPR laboratory
employee in 1987. This class, which covered only one of
many possible analytical procedures (i.e., five day
Biochemical Oxygen Demand, BODs), was provided two years
ago. This same site chemist, although responsible for the
analysis of site wastewater, had not attended a wastewater
analysis course.

     SPR Laboratory Technician

     During an inspection site visit at a SPR analytical
laboratory, we found that the laboratory technician did not
meet specified qualification requirements. As previously
noted, Section 2.3 of the M&O contractor's "Laboratory
Management Plan" contains the functions, responsibilities,
and qualifications of SPR site laboratory technicians. In
part, this section states:

     "2.3.3 Qualifications

      a.   Possess an associate of science degree in
           chemistry or a related field.

      b.   Have at least 1 year of experience in crude
           oil, wastewater analysis, or both."

     Contrary to the above guidance, the laboratory technician's
supervisors told us the technician did not have prior
analytical laboratory or chemistry experience. These
supervisors further advised that the laboratory
technician's prior SPR job assignment had been that of a
stock clerk. A DynMcDermott human resources official
also confirmed that the laboratory technician did not
possess the specified associate of science degree.

     Other Problems Attributed to a Lack of Training

As discussed earlier in this report, we noted job
performance deficiencies, including problems related to
consistency/QA, chain-of-custody, and analytical processes.
These deficiencies may have been minimized if more emphasis
was placed on continuing training, as required by DOE Order
5700.6C.

     Conclusion

     We concluded that the lack of an effective management
control system within the SPR M&O contractor resulted in
management control deficiencies at SPR laboratories. We
identified management control deficiencies which could
result in non-compliance with Clean Water Act regulations,
EPA guidelines, and DOE orders related to environmental
activities and crude oil quality. BPS, and DynMcDermott,
the successor M&O contractor, had previously been made
aware of problems in these areas; the procedural problems
were identified as early as 1989.

     For example, we found that SPR on-site laboratories
conducting environmental compliance and oil quality
analyses did not have formal laboratory procedures,
including quality assurance procedures. Such procedures
are required by CWA regulations. We also found that
recordkeeping practices at SPR analytical laboratories
did not ensure that environmental compliance data would be
available to support reports to regulatory agencies. We
further noted that SPR on-site analytical personnel did
not, in all cases, possess required qualifications nor
receive specified continuing training to ensure maintenance
of job proficiency.

     Recommendation

     We recommend that the Manager, Strategic Petroleum Reserve
Project Management Office:

     1. Direct DynMcDermott to review their management
control system for SPR analytical laboratories, and
to take necessary and timely actions to strengthen
identified deficiencies, including those discussed in
this report.

     Strategic Petroleum Reserve Project Management Office
officials concurred with Recommendation 1. The SPRPMO
officials stated "The Laboratory Program and Procedures
Manual was formally published in May 1994 but lacked
details in several areas." However, the SPRPMO officials
noted that the specific concerns expressed by the
inspection team concerning environmental compliance were
incorporated into the May 1994 publication. SPRPMO
officials stated that "All [LPPM] actions are scheduled to
be completed by July 31, 1995."

     Regarding records management, SPRPMO officials stated that
"The existing Laboratory Program and Procedures Manual,
Section 7, provides clear instructions on proper logbook
maintenance, and indicates that each piece of test
equipment will have a separate logbook. Duplicate
information is maintained in New Orleans, Crude Oil and
Quality Control for Crude Oil samples and Environmental,
Safety and Health for environmental permit requirements.
The logbooks are maintained in accordance with the Conduct
of Operations procedures. The new secure, fire-safe,
filing cabinets have been installed in the five
laboratories and the records have been transferred."
SPRPMO officials further stated an environmental
chain-of-custody procedure had been published, a crude oil
sample custody procedure had been revised, and that SPR
laboratories were complying with these procedures.

     SPRPMO officials further stated, regarding training, that
"The laboratory technician at West Hackberry is the only
technician without a formal technical degree. This
technician has attended off-site courses including advanced
laboratory training and on-the-job training from the
laboratory chemist. The technician has been in the
position for 1 year and has shown proficiency to perform
the required laboratory tests and tasks." SPRPMO officials
further stated that site chemists had attended off-site
training (analytical methods, safety, laboratory auditing)
and "A performance-based training program for the
laboratory chemists and technicians is in the rough stages
of development. This item remains open until the training
program is implemented, scheduled for June 30, 1995."

     SPRPMO OVERSIGHT OF ANALYTICAL LABORATORIES

     We concluded that SPRPMO had not provided for oversight,
confirmation, and independent verification of the work
performed by SPR analytical laboratories conducting
environmental protection compliance analyses. These
requirements are specified in DOE orders, including DOE
Order 5400.1. We noted that the 1992 Tiger Team Assessment
of the SPR had also identified SPRPMO ES&H oversight
deficiencies, including a lack of appraisals. Without
adequate oversight of the SPR analytical laboratories,
SPRPMO can neither ascertain that an environmental
protection program has been effectively implemented, nor
determine the degree of SPR compliance with all applicable
requirements.

     Requirements for SPRPMO Oversight

     DOE Order 5400.1, "General Environmental Protection
Program," dated November 9, 1988, and subsequent changes,
requires DOE Heads of Field Organizations to develop and
implement programs that direct contractors to execute
environmental protection compliance programs and policies.
This Order also requires Heads of Field Organizations to
provide for oversight, confirmation, and independent
verification of these contractor programs. Additionally,
DOE Order 5700.6C, "Quality Assurance," requires that
planned, periodic independent assessments be established
and implemented by an independent assessment organization.
One purpose of such assessments is to improve processes by
emphasizing the achievement of quality.

Oversight by SPRPMO's ES&H Division Not Occurring

During the Tiger Team's 1992 Assessment of the SPR, they
found deficiencies in SPRPMO's ES&H oversight activities,
including the lack of QA appraisals in the ES&H area.
Nonetheless, DynMcDermott ES&H management officials told
us, and SPRPMO ES&H officials confirmed, that no SPRPMO
appraisals addressing regulatory analyses have occurred
since before the Tiger Team review of 1992.

During our review, SPRPMO's ES&H Division Director told us
that two environmental specialists in that Division had
responsibility for oversight of any SPR laboratory
analytical determinations required by NPDES and other
regulations. Neither environmental specialist agreed that
they had these responsibilities. When questioned further,
the Division Director told us the environmental specialists
may not have been told as specifically as they should have
been about their oversight duties, and they may not have
understood that an entire oversight program had to be
planned and scheduled.

As discussed in more detail later in this report, oversight
of analytical subcontractors by the M&O contractor, in the
form of formal and documented appraisals, was also not
occurring. We noted that SPRPMO ES&H Division officials
were under the impression that such appraisals were
occurring.

Environmental Oversight by SPRPMO's QA Division Not
Occurring

The 1992 Tiger Team, noting a deficiency related to
independent assessments, stated that "The SPRPMO Quality
Assurance Division does not include environmental quality
assurance activities in the scope of the QA audits
performed at SPR sites . . . ."   Subsequently, SPRPMO
Quality Assurance Procedure (QAP) 10.3, "INDEPENDENT
ASSESSMENT AND OVERSIGHT OF ES&H," was issued with an
effective date of January 6, 1993. This procedure
established a system for SPRPMO's QA Division to conduct
independent assessments and oversight of ES&H functions and
activities. QAP 10.3 includes environmental protection
activities, such as compliance analyses by laboratories, in
the definition of ES&H functions and activities. Further,
QAP 10.3 states that QA oversight of ES&H occurs primarily
through assessments/verifications, performed jointly with,
or separately from, other SPRPMO elements.

We observed that SPRPMO's QA Division was performing
periodic independent assessments of safety and health.
However, we noted that this Division was not planning, nor
performing, periodic independent assessments and oversight
of environmental protection activities, including
analytical laboratories' environmental compliance and QA
activities. Divisional officials advised that they were
waiting to conduct such assessments in conjunction with
SPRPMO's environmental specialists.

ES&H Oversight by DCMC Not Occurring

The Defense Contract Management Command, an agency of the
U.S. Department of Defense, provides quality assurance
support to the SPR relative to goods and services, under an
interagency agreement. This support includes SPR site
maintenance and operation, and crude oil quality and
quantity verification. For specifically designated DOE
material and equipment, DCMC performs source inspection and
production surveillance in contractors' plants and at SPR
sites. DCMC also performs pre-award surveys, property
administration support, and quality and administrative
services, as delegated by SPRPMO.

In November 1992, as part of the corrective action for a
Tiger Team finding regarding quality verification, SPRPMO
requested that DCMC provide ES&H oversight support to
supplement SPRPMO's oversight. In January 1993, DCMC
responded to the SPRPMO request with a schedule indicating
ES&H QA oversight would begin with audits during that same
month.

Interviews with DCMC QA representatives stationed at SPR
sites revealed that, contrary to understandings between
SPRPMO and DCMC, ES&H audits (including ES&H audits of SPR
analytical laboratories) had not occurred. DCMC management
told us that the schedule provided to SPRPMO in January
1993 was tentative, and not binding. DCMC officials also
told us this oversight had not been initiated due to a
lack of necessary oversight training.

Conclusion

Although more than two years had elapsed since the Tiger
Team identified SPRPMO ES&H oversight deficiencies, we
found that SPRPMO had not begun to implement related
requirements of DOE Orders 5400.1 and 5700.6C. We
therefore concluded that neither oversight, confirmation,
nor independent verification of work performed by SPR
analytical laboratories conducting environmental protection
compliance analyses was occurring.

Without adequate oversight of the SPR analytical
laboratories, SPRPMO can neither ascertain that an
environmental protection program has been effectively
implemented, nor determine the degree of SPR compliance
with all applicable requirements.

Recommendation

We recommend that the Manager, Strategic Petroleum Reserve
Project Management Office:

2. Implement oversight, confirmation, and independent
verification activities, as required by DOE Orders
5400.1 and 5700.6C, for work performed by SPR
analytical laboratories performing environmental
protection compliance analyses.

Strategic Petroleum Reserve Office Project Management
Office officials concurred with Recommendation 2. SPRPMO
officials stated that results of blind sample tests
conducted as part of the EPA Discharge Monitoring Report
Quality Assurance Program have consistently verified SPR
laboratory data's accuracy.

SPRPMO officials further stated that "In February and March
of 1994, DOE and DM QA organizations jointly developed an
award fee goal for providing oversight of DM ES&H
activities; included in the implementation of this goal was
the independent assessment by DM Quality Assurance of crude
oil and environmental functions performed by SPR in-house
and contracted laboratories. . . . DOE, Quality Assurance
Division accompanied the DM assessment group on a number of
on-site and off-site laboratory visits, and developed a
written evaluation of its activities; findings and
conclusions of this evaluation were included in an audit
report forwarded to DM Quality Assurance in October 1994."


SPRPMO officials also stated that DCMC had also been active
in the oversight of crude oil laboratories under the DOE
contract. In addition, SPRPMO officials stated that
laboratory oversight was planned during a number of site
reviews, concluding with Bayou Choctaw on September 22,
1995. Concerning these reviews, SPRPMO officials stated
"This item will be considered closed with the completion of
the last site review at Bayou Choctaw."

ANALYTICAL SUBCONTRACTOR OVERSIGHT

We concluded that neither DynMcDermott, nor the predecessor
contractor, had provided sufficient oversight for on-site
and off-site subcontractors providing analytical services.
Such oversight is required by DOE orders, including DOE
Order 5700.6C, "Quality Assurance." Oversight of
subcontractors providing analytical services, to include
formal and documented audits, is necessary to ensure that
procured services meet established requirements and are of
acceptable quality.

We identified problems which may have been prevented by
increased M&O contractor oversight of subcontractor
analytical laboratories including: 1) an analytical
subcontractor operating on-site at the SPR was unable to,
subsequent to our site visit, provide us with data showing
the accuracy of a testing device being used; 2) required
accuracy and quality control data was missing from data
submitted by an SPR subcontract laboratory; 3) quarterly
auditing recommended in June 1991 had not occurred at an
off-site subcontract laboratory providing oil quality
analyses; and, 4) an environmental permit non-compliance was
attributed to an off-site analytical subcontractor who had
not been subjected to a formal, documented, audit.

Oversight Requirements

DOE orders require auditing of suppliers' performance,
effectiveness, and quality. Suppliers include
subcontractors who provide goods or services. For example,
DOE Order 5700.6C, "Quality Assurance," requires performance
evaluation using a "rigorous" assessment process. Further,
this Order requires organizations to ensure procured
services meet established requirements and to verify that
approved suppliers can continue to provide acceptable
services.



Contractors Were Made Aware of Need for Oversight

A need for analytical subcontractor oversight was conveyed
to BPS in 1991 and 1992. DynMcDermott, as the successor
contractor, inherited the responsibility for correcting
these oversight inadequacies.

At the request of the SPRPMO ES&H Division Director, an
analytical laboratory audit was performed by the Oak Ridge
Operations Office in May 1991. The results of this audit
were transmitted to the SPRPMO Project Manager on June 5,
1991. ORO determined that oversight of subcontractors
providing analytical services was inadequate to assure that
SPR's required accuracy and precision levels were being
satisfied. For example, SPR sites did not have formal audit
programs for reviewing subcontract laboratories used to
conduct routine sample analyses. Further, data received
from contract laboratories was not subjected to a formal
data review and validation program. As a result,
subcontractor data, from samples which had exceeded EPA
holding times, was being used without being so noted. The
May 1991 ORO report suggested several ways to improve
oversight activities.

The Tiger Team's Assessment of the SPR, issued in April
1992, also identified deficiencies related to oversight of
analytical subcontractors.

Analytical Subcontractor Oversight is Not Occurring

DynMcDermott laboratory and ES&H officials, who were also
formerly with BPS, were unaware of any formal, documented,
BPS or DynMcDermott audits of analytical subcontractors,
including those subcontractors performing waste
characterization analyses for SPR compliance with Federal
and state hazardous waste regulations. The former BPS
Environmental Manager told us that oversight of analytical
subcontractors had been "less than adequate." The
DynMcDermott official tasked with laboratory oversight told
us that, under DynMcDermott, a program did not exist to
approve suppliers of analytical services, to appraise
analytical subcontractor performance, nor to provide
documented audit records for quality purposes.

On September 28, 1993, DynMcDermott issued an Environmental
Programs and Procedures document. This document did not
contain guidance for oversight of DynMcDermott subcontractor
laboratories. Rather, the EPPM referred the reader to a
nonexistent Laboratory Programs and Procedures Manual for
guidance on contract laboratory services. The EPPM showed a
document control number for the LPPM, as if the LPPM was a
completed document. However, at the conclusion of our
inspection field work, the LPPM had not been issued in draft
or final form.

Analytical Subcontractor Problems Identified

We identified problems related to analytical subcontractors
during our review. A discussion of these subcontractor
problems follows.

      Analytical Subcontractor Staff Could Not Provide Data

DOE has been studying a problem associated with the SPR's
storage of crude oil. This problem deals with a
higher-than-normal gas content in some crude oil, apparently
from years of intrusion of methane from the surrounding salt
formations. The presence of the methane may require
additional equipment and changes in certain operational
configurations to ensure that the SPR can deliver crude oil
of the proper specifications for commercial transportation
and refining.

During our visit to the Bryan Mound Site, we observed a
subcontractor using a gas chromatograph analyzer to evaluate
the methane content of oil stored in the Bryan Mound
underground storage caverns. The subcontractor stated that
they were operating in accordance with the Standard Practice
Procedures developed by the Gas Processors Association.
These procedures indicate that the linearity, or accuracy,
of a gas chromatograph analyzer must be established prior to
carrying out an analytical procedure. This is done by
charging the gas chromatograph with varying quantities
(i.e., partial pressures) of pure component standard and
plotting this against the instrument response.

Based on a review of instrument operation logs for the gas
chromatograph analyzer, and discussions with the
subcontractor's staff, we determined that the instrument had
not been properly calibrated. The subcontractor's staff
also could not provide us with linearity check data for the
analyzer being used, and, therefore, could not demonstrate
that the instrument's response was linear (i.e., accurate)
in the range of actual observed gas concentrations.

      Lab Data Not Checked for Contract Compliance

Laboratory data generated by subcontractor laboratories was
not consistently checked by M&O contractor laboratory staff
for contract compliance, nor always subjected to a
documented review. For example, we observed metals analysis
data packages at the Bryan Mound Site laboratory which did
not contain calibration curve verification data. The
verification data demonstrates the accuracy of the
analytical results, which are used for the NPDES Permit
compliance program.

Another data package was missing quality control sample
results. The contract between DynMcDermott and the
subcontractor laboratory specifically required that the
verification data and quality control sample results be
provided. Bryan Mound's laboratory staff was unaware, until
our inspection site visit, that the above described data was
missing.

Subsequently, Bryan Mound laboratory staff visited the
subcontractor in question and observed several
discrepancies. These discrepancies included confirming that
calibration curve verification data had not been provided.
Bryan Mound staff also noted a lack of evidence that the
subcontractor had standardized its prepared reagents
(substances used in chemical reactions to detect, measure,
or produce other substances) as per EPA methodology.

      Recommended Audits Not Performed at Oil Quality
      Laboratory

SPRPMO Order 5030.1B, "Strategic Petroleum Reserve Crude Oil
Quality Program and Test Criteria," dated January 24, 1991,
requires the M&O contractor to implement a Crude Oil Quality
Control Program. In part, this program requires measures to
control the quality of the crude oil. The M&O contractor is
also required to maintain detailed records of actions
accomplished in the execution of the program, and the
results of these actions.

For several years, a subcontractor has been utilized for
certain SPR crude oil quality tests. The tests performed by
this subcontractor include Inductivity Coupled Plasma
Spectroscopy for trace elements in oil, and Graphite Furnace
Atomic Absorption Spectrophotometry for low level elemental
analysis of oil.


Our review of records pertaining to this subcontract showed
that a Preaward Technical Survey was conducted on June 4,
1991. At that time, the proposed subcontractor was
performing predominantly water and hazardous waste analyses,
rather than petroleum analyses which would be required by
the subcontract. During this survey, the evaluator was
unable to verify that the proposed subcontractor possessed
any of the required test equipment. The evaluator also
determined that the proposed subcontractor's staff needed to
refamiliarize themselves with testing procedures.

In the June 1991 Preaward Technical Survey Report, the
evaluator recommended the evaluated company be selected by
BPS to fulfill the contract. However, the Report stated the
evaluator wanted to return for another inspection when
the subcontractor achieved compliance and also that
". . . regular auditing will be done on a quarterly basis."

Although the subcontractor in question was still conducting
crude oil analyses for DynMcDermott at the close of our
inspection field work, neither the recommended follow-up
assessment nor any of the quarterly audits had ever been
carried out. The BPS employee who had been responsible for
oversight of this subcontract has also been responsible for
its oversight as a DynMcDermott employee. This employee
stated an informal visit had been made to the subcontractor
on one occasion. However, neither this employee, nor any
other DynMcDermott crude oil control or laboratory official
contacted, could furnish a record documenting their
oversight activities of this subcontractor (as required by
SPRPMO Order 5030.1B).

      Noncompliance With Permit Blamed on Analytical
Subcontractor

In order to comply with the NPDES Permit, two stormwater
samples were taken at the Big Hill Site on January 7, 1993.
That same day, these two samples were shipped to an
analytical subcontractor for analysis of oil and grease as
required by the NPDES permit.

On January 11, 1993, the original sample results, which
indicated noncompliant values for both samples, were
received at Big Hill. Upon query by site personnel, the
subcontractor explained that, due to data transposition, the
value of one sample was erroneous. However, the
noncompliant result of the second sample was correct.


An occurrence report filed by the Big Hill Site attributed
the permit noncompliance on contaminated labware used by the
subcontract analytical laboratory. A SPRPMO review of this
occurrence raised several questions, including a question
about oversight of the analytical subcontractor's facility.
SPRPMO's Assistant Project Manager for Technical Assurance
transmitted the questions to BPS in late March 1993.

One of the questions SPRPMO transmitted dealt with the MOM
contractor's plan for evaluations of the analytical
subcontractor. Regarding this question, SPRPMO wrote "If
the suspected cause for sample test failure is dirty
laboratory glassware, it appears prudent for BPS to visit
the laboratory and evaluate laboratory cleanliness standards
to preclude future incidents." DynMcDermott responded to
the questions on April 20, 1993, after replacing BPS and
becoming the SPR M&O contractor. The DynMcDermott response
to the above question and associated statement read:

      "The laboratory in question was inspected by the
Analytical Programs Manager in mid-1991 when the
laboratory was Source One, Inc. It is now under
new management. It is the management and
operating contractor's intent to inspect
commercial laboratory facilities on at least an
annual basis, subject to resource availability.
The purchase contracts include the clause
allowing the technical representative or their
designee to visit the laboratory at any time."

When questioned about this response, the former BPS
Analytical Programs Manager (still employed at the
conclusion of our inspection field work as a DynMcDermott
laboratory official) told us that his inspection was really
a "friendly visit" to the predecessor company.

We determined that the subcontracted laboratory was not
again visited until September 22, 1993, more than eight
months after the permit noncompliance discussed above.
While the visiting SPR site chemist prepared a memo which
documented the visit, the memo did not contain the
objective and scope of the visit, nor any findings or
concerns about the acceptability of the supplied services.
Further, the SPR site chemist characterized the visit to us
as an informal visit to the subcontractor's facilities.
Therefore, the visit, in our view, could not be classified
as an audit since established audit requirements were not
followed.

Conclusion

We concluded that neither DynMcDermott, nor the predecessor
contractor, had provided sufficient oversight for on-site
and off-site subcontractors providing analytical services.
Such oversight is required by DOE orders, including DOE
Order 5700.6C, "Quality Assurance." Oversight of
subcontractors providing analytical services, to include
formal and documented audits, is necessary to ensure that
procured services meet established requirements and are of
acceptable quality.

     Recommendation

     We recommend that the Manager, Strategic Petroleum Reserve
Project Management Office, direct DynMcDermott to:

     3. Implement subcontractor analytical laboratory
oversight, as required by DOE Order 5700.6C, that is
sufficient to ensure procured analytical services meet
established requirements and to verify that approved
suppliers can continue to provide acceptable services.
Strategic Petroleum Reserve Project Management Office
officials concurred with Recommendation 3. SPRPMO
officials stated that "DM has instituted a contractor
laboratory oversight program for crude oil and
environmental laboratories. This program entails pre-award
surveys and periodic follow-up audits. Seven oil
laboratories and 15 Environmental laboratories inspections
were conducted during Fiscal Year 1994. This item is
considered closed."

MANAGEMENT PRACTICES FOR SELECTED EQUIPMENT AT SPR SITE
LABORATORIES

We identified approximately $148,000 of unused laboratory
analysis equipment at various SPR site laboratories. We
concluded that purchase of a portion of this equipment,
approximately $89,000, was an unnecessary expenditure. We
subsequently determined that some of the identified
equipment had never been used for its intended purpose.
Furthermore, all of the equipment had been idle for several
years, and had not been promptly excessed nor properly
designated as equipment held for future projects, as
required by DOE Property Management Regulations.



Requirements for Management of Laboratory Equipment

Section C.1 of the M&O contract with DynMcDermott requires
their compliance with DOE orders, directives, policies,
plans and programs, and management directives for M&O
contractors. Further, Section C.2, Part VII, subpart f,
titled "Property," requires DynMcDermott to develop and
implement an approved property management system that
complies with DOE Property Management Regulations, orders,
and directives.

Department of Energy Acquisition Regulation Part 970,
"Management and Operating Contracts," and 41 CFR, Chapter
109, "Department of Energy Property Management
Regulations," prescribes the DOE policy for personal
property management. Guidelines for utilization of
government property at DOE locations are found in 41 CFR
109-1.5103, "Maximum use of property," which states:

"Property management practices shall assure that
the best possible use is made of property.
Supplies and equipment shall be generally limited
to those items essential for carrying out the
programs of DOE effectively. Adequate staff
review shall be made of operating programs to
coordinate and plan future supply activities and
to assure against overstocking, waste, and
improper use of property."

     41 CFR, Chapter 109, also provides guidelines for
identification, and appropriate disposition, of idle
government equipment. Specifically, 41 CFR 109-25.109-1,
"Identification of idle equipment," states that:

"As a minimum, management walk-through inspections
shall be scheduled to provide for coverage of all
operating and storage areas at least once every
two years to identify idle and unneeded personal
property. . . . Equipment identified as idle and
unneeded shall be redeployed, reassigned, placed
in equipment pools or declared excess, as
appropriate."

The DOE Property Management Regulations also set forth
guidelines to be followed when government equipment has no
current use, but has a potential future use. Such
equipment is defined as "equipment held for future
projects (EHFFP)." In order for EHFFP to be retained, an
approved justification must document a known future use, or
potential use, in planned projects. Specifically, 41 CFR
109-27.5102, "Objective," in setting out the objective of
the EHFFP program, states that:

"The objective . . . is to enable DOE offices and
contractors to retain equipment not in use in
current programs but which has a known or
potential use in future DOE programs, while
providing visibility on the types and amounts of
equipment so retained through review and
reporting procedures. It is intended that
equipment . . . be made available for use by
others, and that equipment no longer needed be
promptly excessed."

     Four Spectrometers Have Never Been Used for Intended Purpose

Analysis for oil and grease levels in stormwater samples is
required at the SPR storage facilities to comply with NPDES
and state environmental permits. During the mid-1980s, a
BPS analytical laboratory staff member learned of available
technology which would allow oil and grease level analyses
to be performed by an infrared spectrometer method.
However, EPA had not approved compliance analyses by this
method. BPS staff believed that the infrared spectrometer
method would improve the efficiency of laboratory
operations, and consulted with EPA officials about
obtaining special approval to utilize this method in SPR
laboratories.

A DynMcDermott environmental manager, formerly employed as
a BPS environmental manager, recalled that the EPA wanted
equivalency testing conducted with an infrared spectrometer
at a SPR site prior to method approval. Such testing would
have demonstrated that infrared spectrometer analysis was
equivalent to the method it was proposed to replace. In
late 1985, BPS environmental officials completed a request
to purchase one infrared spectrometer for use in
equivalency testing. However, we were told that, during a
procurement meeting about the spectrometer purchase, a
former BPS finance director decided sufficient money was
available to procure several spectrometers in anticipation
of EPA approving the method.

SPR property records show that three infrared spectrometers
were acquired during September and October 1986, at a cost
of $29,481 each. Another spectrometer was acquired in June
1988, at a cost of $29,900. The environmental manager
described this equipment as being "cutting edge" technology
when it was new.

After these devices were purchased, the environmental
manager told us EPA officials, based upon review of
equivalency testing data, denied permission for the use of
the infrared spectrometer method. Thus, the four
spectrometers could not be used for their intended purpose.
Rather, the spectrometers were retained, without proper
EHFFP designation, in anticipation that EPA approval of
their use could be secured at a future date. The
environmental manager told us a BPS staff member, who had
originally identified the infrared spectrometer method, did
find a few isolated uses for the purchased equipment. This
staff member left the company in approximately 1990. The
spectrometers have been idle since this staff member's
departure, as other analytical staff members were not
trained to use the equipment.

In November 1993, DynMcDermott submitted applications to
the EPA for renewal of NPDES permits at the SPR. In these
applications, DynMcDermott again requested EPA's permission
for use of the infrared spectrometer method for oil and
grease analysis. DynMcDermott also requested permission to
greatly reduce the frequency of oil and grease analyses.
At present, during periods of rain, daily samples of
stormwater must be analyzed. If approved, the revised
permits would reduce this analysis frequency to once per
quarter. Consequently, the need for the idle infrared
spectrometers, even if approved by EPA for use, would also
significantly decrease. (EPA's decision on these
applications was pending at the completion of our
inspection field work.)

Ion Chromatograph Analyzer Idle Since 1990

We were told that based on an engineering requirement, the
BPS Cavern Engineering organization arranged procurement of
an ion chromatograph analyzer, and related optional
equipment, for use at Bryan Mound's analytical laboratory.
This device was to perform certain ion testing on brine
generated during the leaching process. Leaching is a
process utilized to expand the salt dome caverns where SPR
crude oil is stored.

SPR property records show the ion chromatograph was
acquired in June 1988 at a cost of $19,623. Six pieces of
associated optional equipment were acquired at the same
time, which increased the total purchase cost to $29,841.

The ion chromatograph analyzer, and optional equipment, has
not been used since 1990, when a site chemist, who was the
only employee familiar with these devices, left BPS.
Laboratory personnel hired at Bryan Mound since the former
chemist's departure, including those hired by DynMcDermott,
have not received training in use of the ion chromatograph.
Although this equipment has remained idle since 1990, the
ion chromatograph and options have not been placed on an
excess list, or designated as EHFPP.

Conclusions

Based on our review of circumstances surrounding the
procurement of four infrared spectrometers, we concluded
that purchase of three spectrometers not needed for
equivalency testing resulted in an unnecessary expenditure
of approximately $89,000.

We also concluded that appropriate actions should have been
taken to assure the best possible use of the four infrared
spectrometers and the idle ion chromatograph analyzer, in
accordance with DOE Property Management Regulations.

Recommendations

We recommend that the Manager, Strategic Petroleum Reserve
Project Management Office, direct DynMcDermott to:

4. Take appropriate action, in accordance with Department
of Energy Property Management Regulations, to
assure that the best possible use is made of the
four infrared spectrometers and the idle ion
chromatograph analyzer.

5. Review their property management system to
determine if the system has adequate controls to
ensure proper implementation of DOE Property
Management Regulations relating to the best use of
equipment.

     Strategic Petroleum Reserve Project Management Office
officials concurred with Recommendations 4 and 5. SPRPMO
officials stated that several corrective actions are being
taken, or have been taken, since the inspection was
conducted. Specific actions are provided below.

     Recommendation 4. "The four spectrometers and one
chromatograph identified in IG-40 report were excessed by
DM Property during the October-December 1994 time frame.
This item is considered closed."

     Recommendation 5. "DM issued their Supply Services Manual,
which was reviewed by the DOE Contractor Personal Property
System Review in April 1994, and conditionally approved.
This manual defines the management system to control
property and equipment which includes DM Equipment Usage
Reporting System and defines management responsibilities.
. . . DOE will specifically target this area as part of a
Fiscal Year 1995 follow-up review of the Management and
Operating contractor property system, scheduled to be
completed by August 31, 1995, with a report to be completed
by September 30, 1995. This item will be considered closed
with the completion of the follow-up review report."

     LACK OF TIMELY DISPOSAL OF AN UNNEEDED RADIOACTIVE CHEMICAL

     Laboratory employees at one SPR site worked around the
potential hazards associated with an unneeded radioactive
chemical during its long-term storage. A small quantity
(approximately 10 grams) of this chemical, Uranyl Acetate,
had been stored in a SPR site laboratory for more than 10
years. Current SPR personnel do not know how the
radioactive chemical got into the laboratory, or why.
DynMcDermott officials we contacted were unable to
determine how, when, or why an additional 15 grams of this
chemical may have been utilized. Knowledgeable SPRPMO and
DynMcDermott officials estimated labor costs ranging
between $10,000 and $20,000 had been incurred in repeated
attempts to arrange for disposal of the Uranyl Acetate,
which had a value of approximately $100. Disposal efforts,
and the steadily accumulating disposal costs, were
continuing at the conclusion of our inspection field work.

     Origin and Past Possible Uses of Chemical Unknown

     We found that a small quantity of an unneeded radioactive
chemical, Uranyl Acetate, has been stored at the Bryan
Mound SPR Site Laboratory for more than 10 years. Uranyl
Acetate is a low-level radioactive and toxic compound.
DynMcDermott's ES&H Manager at Bryan Mound, who was a Bryan
Mound environmental specialist with BPS, told us current
SPR personnel do not know how the Uranyl Acetate got into
the Bryan Mound laboratory, or why. This statement was
supported during discussions with other DOE and
DynMcDermott environmental officials, and during review of
DynMcDermott and BPS documents pertaining to the Uranyl
Acetate. However, our review found BPS environmental
officials knew of the presence of Uranyl Acetate at Bryan
Mound as early as May 1986. At that time, BPS published a
chemical inventory list for Bryan Mound, which showed an
unspecified amount of Uranyl Acetate present at the site
laboratory.

     Hazards Associated with Uranyl Acetate

     Material Safety Data Sheets (MSDS) provide safety
information about chemicals, such as physical data,
toxicity, health effects, transportation data, and
fire/explosion information. According to an MSDS for
Uranyl Acetate, this chemical may emit poisonous gases when
heated to decomposition, as could occur in a laboratory
fire. As related to toxicity, the Uranyl Acetate MSDS
states:

"SOLUBLE URANIUM COMPOUNDS, SUCH AS URANYL
ACETATE, MAY CAUSE IRRITATION OF THE EYES AND
LUNG DAMAGE; THE TARGET ORGAN FOR THESE
COMPOUNDS IS THE KIDNEY, TO WHICH THEY CAN CAUSE
GREAT DAMAGE AND RENAL FAILURE. THE TOXICITY
MAY BE EFFECTED THROUGH SKIN ABSORPTION,
INDIGESTION, AND ESPECIALLY INHALATION. THE
CHEMICAL TOXICITY IS MORE SIGNIFICANT THAN THE
RADIOLOGICAL TOXICITY."

     Thus, an undetermined number of laboratory employees
at the Bryan Mound Site have worked around the
potential hazards associated with the unneeded Uranyl
Acetate during its long-term storage.

     Requirements for Disposal of Radioactive Materials

     We contacted the Chief, Radiation Protection Unit, Air,
Water, and Radiation Division, Office of Environmental
Guidance (Unit Chief), at DOE Headquarters. The Unit Chief
told us that the SPR Uranyl Acetate should be treated as a
low-level radioactive compound, and that timely disposal of
unneeded quantities should occur since Uranyl Acetate is
also a toxic chemical. The Unit Chief also advised that
disposal of the Uranyl Acetate is governed by the DOE
orders dealing with radiation protection, including the
provisions of DOE Order 5820.2A, "Radioactive Waste
Management."

DOE Order 5820.2A establishes DOE policies, guidelines, and
minimum requirements for management of radioactive waste.
This Order defines radioactive waste as "Solid, liquid, or
gaseous material that contains radionuclides regulated
under the Atomic Energy Act of 1954, as amended and of
negligible economic value considering costs of recovery."
This Order establishes the DOE policy that low-level waste
be managed and disposed of so the radioactive components
are contained, and cost effectiveness is maximized.

     Efforts Unsuccessful to Dispose of Unneeded Chemical

     Over the past several years, efforts have been undertaken
by the current M&O contractor and former MOM contractor to
dispose of this chemical. Records indicate BPS undertook
disposal efforts for the Uranyl Acetate in December 1991,
with efforts continuing without success throughout the
remainder of the BPS contract. DynMcDermott, the successor
contractor, renewed disposal efforts which have also been
unsuccessful.

The DOE Headquarters Unit Chief discussed various disposal
options with us. The Unit Chief also stated that those
officials attempting to dispose of the Uranyl Acetate
should have contacted his office, or other waste management
elements at DOE Headquarters, for assistance.

A majority of the documented contacts concerning disposal
of the Uranyl Acetate took place between SPR contractor
employees and employees at other DOE contractor facilities,
private companies, and governmental entities. The records
documenting these contacts show that the Uranyl Acetate
disposal problem, while discussed with SPRPMO officials,
was never elevated to waste management officials at the DOE
Headquarters level.

While it would be impossible to determine the exact amount
spent, knowledgeable SPRPMO and DynMcDermott officials
estimated labor costs ranging between $10,000 and $20,000
had been incurred in repeated attempts to arrange for
disposal of the Uranyl Acetate, which had a value of
approximately $100. Disposal efforts, and the steadily
accumulating disposal costs, were continuing at the
conclusion of our inspection field work.
     Quantity Of Uranyl Acetate Misstated

     The fact that the quantity of the Uranyl Acetate was also
misstated may have also contributed to the unsuccessful
disposal efforts. According to records documenting the
unsuccessful disposal attempts, the quantity of Uranyl
Acetate at the Bryan Mound Site Laboratory had been
consistently overstated. Some documents repeatedly
described the chemical's quantity as 25 grams, while other
documents repeatedly described the quantity as 20 grams.

We examined the Uranyl Acetate container, bearing Lot
Number 772764, and noted the supplier had affixed a label
stating the container held 25 grams when initially
received. At the time of our examination, the container
was only partially full, containing approximately 10 grams
of the chemical. DynMcDermott officials contacted were not
able to determine how, when, or why an additional amount of
approximately 15 grams of this chemical may have been
utilized.

     Conclusions

     We concluded that the long-term storage of Uranyl Acetate,
an unneeded radioactive chemical with toxic properties,
resulted in an undetermined number of Bryan Mound Site
laboratory employees working unnecessarily around the
potential hazards associated with this chemical for more
than 10 years. We further concluded that the repeated,
unsuccessful attempts to dispose of this chemical, valued
at $100, resulted in unnecessary labor expenditures
estimated between $10,000 and $20,000. DOE policy states
that low-level waste should be managed and disposed of so
as to maximize cost effectiveness.

Recommendation

We recommend that the Manager, Strategic Petroleum Reserve
Project Management Office, direct DynMcDermott to:

6. Take appropriate action, in accordance with DOE's
policy on low-level waste, to dispose of the SPR's
unneeded Uranyl Acetate in an expeditious and cost
effective manner.

     Strategic Petroleum Reserve Project Management Office
officials concurred with Recommendation 6. SPRPMO
officials stated "The Uranyl Acetate has been disposed. It
was transferred to Louisiana State University, Baton Rouge,
in June 1994 to be used for electronmicroscopy. This item
is considered closed."
                                                     Appendix A


     Other Reviews Identifying Problems Associated with
Preparation of the Strategic Petroleum Reserve's (SPR)
Laboratory Programs and Procedures Manual

     In addition to those reviews discussed on page 10 of the
report, we analyzed several other reviews which identified
problems associated with the preparation of laboratory
standard operating procedures for the SPR. These reviews
stressed the preparation of a procedural document, which
was referred to in the reviews and by analytical staff as
the "Laboratory Programs and Procedures Manual" (LPPM).
Synopses of these reviews follow.

     A SPRPMO On-Site Management Appraisal of the West Hackberry
SPR Site, conducted April 16-20, 1990, mentioned that the
Louisiana Department of Environmental Quality (LDEQ) had
made suggestions pertaining to laboratory procedures.
These suggestions resulted from an LDEQ Water Pollution
Control Division unannounced inspection of the West
Hackberry Laboratory on March 23, 1990. Also, a Boeing
Petroleum Services, Inc. (BPS), Award Fee Self Assessment
for the Performance Period of April 1, 1990, to September
30, 1990, noted the management, operating, and maintenance
contractor's environmental procedure manuals needed
updating, and that the revision schedules were continually
slipping.

     In March 1991, a SPRPMO Environmental, Safety, and Health
(ES&H) Performance Evaluation Committee (PEC) Report for
the period from October 1, 1990, through March 31, 1991,
was issued. This PEC Report found BPS deficient in
updating basic environmental manuals.

     A BPS Award Fee Self Assessment, for the period April 1,
1991, through September 30, 1991, stated BPS had identified
as a "notable program weakness" that environmental
procedures had not been completed in a timely manner.

     A September 4, 1991, SPRPMO Award Fee Determination Plan
transmitted to BPS the ES&H PEC Objectives and Criteria for
the Evaluation Period October 1, 1991, through March 31,
1992. This plan listed as a criterion the effective
management of an environmental protection program, with
particular emphasis on updating the environmental
procedures manuals by January 31, 1992.

     On December 31, 1991, the BPS Contracts Manager sent a
letter to the Chief, SPRPMO Contracts and Acquisition
Branch, on the subject of BPS Award Fee Goals for the six
month period commencing October 1, 1991. This letter
listed short-term, interim, and long-term goals and
implementation plans. The Short-Term (less than six
months) Award Fee Goals and Implementation Plan of the BPS
Environmental Control Section listed a BPS goal of
completing revision of the Environmental Programs and
Procedures Manual by March 20, 1992. Also listed as a goal
was completion of the draft Laboratory Programs and
Procedures Manual by February 14, 1992.

     An April 6, 1992, BPS Award Fee Self Assessment for the
Performance Period October 1, 1991, through March 31, 1992,
identified, as a continuing notable program weakness, the
fact that environmental procedures had not been completed
in a timely manner. However, BPS said that this matter had
management's attention.

     An October 5, 1992, BPS Award Fee Self Assessment for the
period April 1, 1992, through September 30, 1992,
acknowledged environmental and laboratory procedures had
not been completed in a timely manner, and that this was a
serious program weakness.

     A SPRPMO Award Fee Recommendation, dated October 29, 1992,
for the period April 1, 1992, through September 31 [sic],
1992, found strong emphasis needed to be placed on
completing corrective actions emanating from the Tiger Team
Assessment. This Award Fee Recommendation found
reschedules were submitted after the fact, rather than in a
timely manner before deadlines. Failure to complete
milestones as agreed, such as the BPS environmental manuals
and several DOE Order 5400.1 plan milestones, was also
reported as a developing problem. Further, six instances
were found indicating the serious lack of attention to the
requirement for an acceptable crude oil quality program,
resulting in the reliability of BPS generated crude oil
quality data being questionable.

     On November 23, 1992, BPS prepared a Tiger Team corrective
action plan addressing laboratory standard operating
procedures. This plan indicated laboratory procedures were
to be prepared by February 28, 1993. The corrective action
plan showed that a training plan on laboratory procedures
was to be implemented by May 30, 1994.


     The "Expectations, Goals, and Priorities" of the PEC for
Operations and Maintenance, for the Award Fee Evaluation
Period Ending September 30, 1993, specified that
DynMcDermott must ensure that Conduct of Operations at the
SPR facilities are managed with a consistent and auditable
set of requirements, standards, and responsibilities. The
Award Fee Determination Plan for the period April 1, 1993,
through September 30, 1993, specified an evaluation
criterion to assess DynMcDermott's effectiveness in
scheduling and implementing corrections for Tiger Team and
other identified deficiencies.

     In June 1993, the SPRPMO ES&H Division conducted an
appraisal of the SPR non-regulatory groundwater sampling
and analysis program. This appraisal reviewed the "tools"
in place for employees to use in carrying out their duties
under this program. Also, the appraisal reviewed the
groundwater sampling and analysis program against a Tiger
Team Groundwater Sampling and Analysis Corrective Action
Plan. This appraisal found that none of the SPR sites
conducting groundwater sampling and analysis had approved
procedures for the collection, analysis, recording, or
reporting of this type of sampling and analysis data. The
appraisal also found a Tiger Team corrective action plan
milestone for developing standard laboratory procedures was
behind schedule. In lieu of a procedural document, the
appraisal found new site personnel learned groundwater
sampling and analysis, in part, through the availability of
the SPR Environmental Monitoring Plan. However, the
version of this plan in effect at the time, which was
signed by the then SPR Project Manager in October 1991,
referred readers to the nonexistent Management and
Operating contractor's LPPM for guidance on procedures.

     In August 1993, DynMcDermott prepared a revised Tiger Team
corrective action plan which showed laboratory standard
operating procedures were to be completed by February 28,
1994. This plan was later revised to show laboratory
standard operating procedures would be completed by
December 31, 1994, with procedural training to be completed
by March 31, 1995. A DOE Oversight Designee approved this
revision on September 1, 1993.
